No. 21A21
________________________________________________________________
________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED STATES, ET AL.,
APPLICANTS
v.
STATE OF TEXAS, ET AL.
_______________
REPLY IN SUPPORT OF APPLICATION FOR A STAY
AND REQUEST FOR AN ADMINISTRATIVE STAY
_______________
BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

________________________________________________________________
________________________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 21A21
_______________
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED STATES, ET AL.,
APPLICANTS
v.
STATE OF TEXAS, ET AL.
_______________
REPLY IN SUPPORT OF APPLICATION FOR A STAY
AND REQUEST FOR AN ADMINISTRATIVE STAY
_______________
Absent a stay from this Court, the district court’s nationwide
injunction would compel the government to abruptly reinstate a
short-lived, discretionary immigration program that has been suspended for seven months and largely dormant for nearly a year and
a half.

In so doing, the injunction would intrude on the Execu-

tive’s immigration-enforcement and foreign-affairs authorities by
disrupting

border

operations,

diverting

scarce

resources

from

other urgent priorities, and intruding into the Nation’s relations
with Mexico and other foreign partners.

Respondents fail to jus-

tify that extraordinary result.
Like the court of appeals, respondents largely retreat from
the district court’s assertion that terminating the Migrant Protection Protocols (MPP) caused the government to violate a purported mandate in 8 U.S.C. 1225 to detain virtually every applicant
for admission.

With good reason:

The district court’s holding

ignores the express statutory authorities that every presidential

2
administration since 1996 has relied on to parole or otherwise
release certain noncitizens subject to Section 1225.

Respondents

instead rest primarily on their quibbles with the Secretary’s explanation for his decision.

But unlike the “succinct” agency

decision at issue in Department of Homeland Security (DHS) v.
Regents of the University of California, 140 S. Ct. 1891, 1910
(2020), the Secretary’s memorandum here assessed the competing
considerations and explained why, as a matter of policy, he preferred to devote DHS’s resources to other initiatives that he
judged more appropriate and effective.

Nothing more was required.

Respondents’ arguments on the balance of the equities are no
more persuasive.

They cannot show that they will suffer any mean-

ingful harm from preserving the status quo pending an appeal, which
the court of appeals has already expedited.

And their efforts to

minimize the injunction’s severe harm to the government blink reality.

Their assertion (Opp. 36) that the government “unilater-

ally” instituted MPP and could do so again is refuted by, among
other things, then-Secretary Nielsen’s initial announcement of MPP
on December 20, 2018, which catalogued Mexico’s commitments to
returned migrants -- and preceded MPP’s implementation by weeks.
See A.R. 151-153; Appl. App. 102a.

That the injunction requires

the government to reinstitute MPP in “good faith” does not solve
the problem.

It still compels a profoundly disruptive shift of

priorities, resources, and relations with Mexico and other partners.

The district court’s apparent plan to superintend the good

3
faith of those diplomatic and policy efforts on pain of contempt
is a vice, not a virtue. 1
This Court should stay the injunction until it can be reviewed
by the court of appeals and (if necessary) this Court.

And if the

Court does not rule before the existing administrative stay expires
at 11:59 pm this evening, it should extend that stay pending the
resolution of this application.
I.

THIS COURT IS LIKELY TO GRANT CERTIORARI AND REVERSE IF THE
COURT OF APPEALS AFFIRMS THE DISTRICT COURT’S INJUNCTION
Respondents do not meaningfully dispute that, if the court of

appeals affirms the district court’s injunction, this Court is
likely to grant a writ of certiorari.
Lab, 141 S. Ct. 617 (2020).

Cf. Wolf v. Innovation Law

And respondents fail to show that

there is not even a fair prospect that this Court would vacate the
district court’s injunction.

The Secretary’s termination decision

is neither reviewable nor contrary to law.
A.

Respondents lack standing because their asserted inju-

ries (Opp. 10-11) are speculative and self-inflicted.

Moreover,

respondents’ theory reduces to the assertion that, because States
Contrary to respondents’ suggestion (Opp. 3 n.1,), this
Administration has never considered reinstating the previous Administration’s MPP program. Even taking the anonymously sourced
article on which respondents rely on its own terms, the article
describes preliminary discussions about whether and under what
circumstances the authority in Section 1225(b)(2)(C) might be used
at some point in the future as part of a different program that
addressed MPP’s serious flaws. Such discussions do not remotely
undermine the irreparable harms that would flow from the district
court’s mandate to reinstate MPP in precipitous fashion.
1

4
expend resources on their residents, a State may sue whenever the
federal government takes any action that can be expected to increase the number of people (noncitizens or not) within its borders.

By the same logic, other States could challenge any federal

immigration or other policy that could reduce their population, on
the theory that residents pay taxes and confer other benefits.
This Court has never blessed such a limitless theory of standing.
Respondents also fail to overcome the multiple statutory bars
to judicial review of the decision here.

Respondents do not dis-

pute (Opp. 13) that MPP invoked a discretionary authority that the
Secretary “may” use.

8 U.S.C. 1225(b)(2)(C).

Respondents instead

cite general Administrative Procedure Act (APA) principles to
assert (Opp. 13-14) that the Secretary’s use of that authority is
nonetheless reviewable for abuse of discretion.

But respondents

fail even to acknowledge -- much less distinguish -- 8 U.S.C.
1252(a)(2)(B)(ii), which expressly bars review of “any

* * *

decision or action” specified “to be in [Executive] discretion.”
And respondents’ attempt (Opp. 14-15) to identify a meaningful
statutory standard to judge the Secretary’s decision simply repeats the district court’s conclusion that the rescission ran afoul
of Section 1225’s detention mandate.
for the reasons explained below.

That conclusion was wrong

See pp. 5-7, infra.

In addition, 8 U.S.C. 1252(f)(1) barred the district court’s
nationwide relief purporting to enforce Section 1225.

Respondents

contend

limited

(Opp.

15-17)

that

Section

1252(f)(1)

is

to

5
injunctions restraining, not enforcing, the covered provisions.
But as Justices Thomas and Gorsuch have explained, that reasoning
is “circular and unpersuasive.”

Nielsen v. Preap, 139 S. Ct. 954,

975 (2019) (Thomas, J., concurring in part and concurring in the
judgment).

Section 1252(f)(1) broadly prohibits district courts

from “enjoin[ing] or restrain[ing] the operation of” the specified
provisions.

8 U.S.C. 1252(f)(1) (emphasis added).

It reflects

Congress’s judgment that suits by individuals in removal proceedings -- not APA suits by States -- are the appropriate vehicles
for challenging immigration policy.
B.

Even if respondents’ claims were reviewable, the gov-

ernment would be likely to prevail on the merits.
1.

The court of appeals declined to endorse the district

court’s interpretation of Section 1225.

See Appl. App. 27a-29a.

And respondents largely back away from (Opp. 24-27) the district
court’s extraordinary conclusion that the government must reinstate MPP because, otherwise, it cannot fulfill Section 1225’s
purported mandate to detain nearly all inadmissible applicants for
admission.

That conclusion was deeply flawed.

Respondents acknowledge that the contiguous-territory-return
authority in Section 1225(b)(2)(C) is an “optional” tool that the
Secretary “‘may’” use at his “choice.”
1225(b)(2)(C)).

Opp. 26 (quoting 8 U.S.C.

Respondents do not identify anything in the text

or context of the statute to support their assertion that the
return authority transforms into a mandatory duty whenever the

6
volume of noncitizens exceeds DHS’s detention capacity -- as it
has throughout the statute’s history.

Appl. App. 97a-98a.

Respondents also do not deny (Opp. 27) that the district
court’s reading of Section 1225 would mean that every presidential
administration over the last quarter century has been in continuous
violation of the statute.

The Executive Branch has never been

provided the resources to detain every noncitizen subject to Section 1225, and it has never tried to do so.
101a (Shahoulian Decl.).
gestion

(Opp.

25-27),

See Appl. App. 98a-

And contrary to respondents’ vague sugthat

grounded in the statute.

longstanding

practice

is

firmly

As then-Attorney General Barr explained,

for example, Section 1225 “does not mean” that every noncitizen
“must be detained from the moment of apprehension until the completion

of

removal

proceedings,”

because

8

“grants the Secretary discretion to parole.”
I. & N. Dec. 509, 516-517 (A.G. 2019).

U.S.C.

1182(d)(5)

In re M-S-, 27

DHS has long interpreted

8 U.S.C. 1182(d)(5) to authorize parole of noncitizens who “present
neither a security risk or a risk of absconding” and “whose continued

detention

212.5(b)(5)

--

detention space.

is

not

including

in
in

the

public

some

cases

interest,”
because

of

8

C.F.R.

limits

on

See generally Damus v. Nielsen, 313 F. Supp. 3d

317, 324 (D.D.C. 2018) (describing DHS’s “Parole Directive,” effective since 2009). In some circumstances, DHS also has authority
to release noncitizens on bond.

8 U.S.C. 1226(a)(2); see 62 Fed.

Reg. 10,312, 10,312-10,313, 10,323 (Mar. 6, 1997) (interim final

7
rule providing that certain noncitizens “have available to them
bond re-determination hearings before an immigration judge”).
Rather than endorse the district court’s unprecedented interpretation of Section 1225 -- which respondents pressed below
-- respondents now embrace (Opp. 27) the court of appeals’ more
modest holding that the government cannot “simply release every
alien described in § 1225 en masse into the United States.”
App. 29a.

Appl.

But the government has never argued otherwise, and the

record does not support respondents’ and the court of appeals’
supposition about DHS’s parole practices.

See id. at 99a (senior

DHS official attesting that Immigrations and Customs Enforcement
detained 25,671 noncitizens as of August 16, 2021, which is approximately 75% of its funded capacity and the maximum permitted
under the CDC’s current COVID-19 guidance); see also 8 C.F.R.
212.5(b) (requiring “case-by-case” determinations).

Respondents’

contrary assertion rests principally on a single law professor’s
opinion quoted in a newspaper article.
& n.11).

Opp. 27 (citing App. 77a

And that professor was characterizing parole practices

while MPP was in effect, not today.

A.R. 184.

Even more to the point, the court of appeals’ modest holding
does not even arguably support the injunction.

The district court

did not merely require the government to maintain MPP until it can
avoid releasing every noncitizen subject to Section 1225 en masse
-- a condition that is already satisfied.

Instead, it froze MPP

in place until the government can “detain all aliens subject to

8
mandatory detention under Section [1225] without releasing any
aliens because of a lack of detention resources” -- a condition
that will likely never be satisfied.

Appl. App. 86a.

The court

of appeals made no effort to explain its decision to leave the
injunction in place while rejecting its essential premise.
2.

Respondents also have not justified the district court’s

conclusion that the Secretary’s explanation for terminating MPP
fails the deferential APA standard.

Respondents seek to undermine

the Secretary’s reasoning largely by pretending it does not exist.
Respondents principally contend (Opp. 18-19) that the Secretary failed to consider MPP’s deterrence of non-meritorious asylum
claims.

But they ignore the Secretary’s decision to address that

problem with other tools, including long-term “anticipated regulatory and policy changes” and a “Dedicated Docket” program intended to expedite removal proceedings while “promot[ing] compliance and increas[ing] appearances.”

Appl. App. 92a-94a.

Respond-

ents may disagree with the Secretary about how to weigh the comparative advantages of MPP and these other initiatives.

But their

elevation of their preferred approach over his is an impermissible
attempt to “substitute [their] judgment for that of the agency.”
Motor Vehicle Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983).
The Secretary further explained that MPP had not achieved its
aims with sufficient efficacy to justify the substantial resources
that it diverted from other programs.

He noted that, while MPP

9
was in operation, “border encounters increased during certain
periods and decreased during others,” Appl. App. 91a; see A.R.
664, 669 (showing increased border encounters in early 2019), and
further that asylum “backlogs increased,” Appl. App. 92a. In light
of those considerations, the Secretary determined that the Administration’s “reforms will improve border management and reduce
migration surges more effectively and more sustainably than MPP.”
Id. at 93a.

Respondents have no answer to any of those points.

Instead, respondents assert (Opp. 20-21) that the Secretary
erred in treating the high rate of in absentia removal orders for
MPP enrollees as cause for concern that MPP may have deterred some
potentially meritorious asylum claims.

Even if respondents were

correct, such an isolated misstep would not render the Secretary’s
entire memorandum arbitrary and capricious.

And in any event, the

Secretary did not cite the in absentia rate in isolation, but
rather examined it in the context of the “conditions faced by some
MPP enrollees in Mexico, including the lack of stable access to
housing, income, and safety.”

Appl. App. 92a.

The Secretary was

fully justified in reaching the modest conclusion that this evidence raised doubt about “whether the process provided enrollees
an adequate opportunity to appear for proceedings to present their
claims for relief.”

Ibid.

Respondents do not explain how the

Secretary could have determined the precise fraction of the in
absentia rate attributable to the abandonment of non-meritorious
claims.

See Federal Communc’ns Comm’n v. Fox Television Stations,

10
Inc., 556 U.S. 502, 519 (2009) (declining “to insist upon obtaining
the unobtainable”).

“It is not infrequent that the available data

do not settle a regulatory issue,” and in that circumstance, an
agency must “exercise its judgment in moving from the facts and
probabilities on the record to a policy conclusion,” State Farm,
463 U.S. at 52.

That is just what the Secretary did.

Respondents next contend (Opp. 21-23) that the Secretary
failed to consider the States’ reliance interests.

But aside from

invoking (Opp. 22-23) a purported contract with no legal effect,
respondents do not even attempt to show that they took actions in
reliance on MPP, such as by making budgeting decisions based on
the number of noncitizens expected to be returned under MPP. Moreover, the Secretary expressly considered the effect of rescission
“on border management and border communities, among other potential stakeholders.”

Appl. App. 93a.

He was not required to

consider every possible incidental, attenuated effect or “thought
conceivable by the mind of man.”

Regents, 140 S. Ct. at 1915

(citation omitted).
Finally, respondents contend (Opp. 23-24) that the Secretary
failed to consider a more limited version of MPP.

But the Secre-

tary did consider that path and explained why he rejected it.
Appl. App. 93a.

The APA did not require the Secretary to enumerate

each alternative before rejecting it.
1914-1915.

See Regents, 140 S. Ct. at

Respondents rely on Regents, but there the Court ad-

dressed a multipart policy and found that the agency’s stated

11
reasoning supported rescinding only one part.

See id. at 1913

(“[T]he rescission memorandum contains no discussion of forbearance or the option of retaining forbearance without benefits.”).
Here, respondents do not identify which parts of MPP should have
been retained in light of the Secretary’s stated determinations.
3.

Even if one or more of respondents’ criticisms of the

memorandum were valid, the district court abused its discretion by
vacating the Secretary’s decision and ordering MPP’s reinstatement, especially given the disruption to foreign policy. See Appl.
33-34.

Respondents do not attempt to defend the district court’s

remedy or show that the Secretary would be unable to cure any APA
flaws on remand.

In fact, they do not respond to this argument at

all. Their inability to do so further confirms that the government
is likely to succeed on the merits.
II.

THE BALANCE OF HARMS OVERWHELMINGLY FAVORS A STAY
The equities overwhelmingly support a stay.

Appl. 35-40.

The district court’s injunction effectively requires the Executive
Branch to engage in diplomatic negotiations with Mexico to persuade
it to accept migrants returned under MPP and accord them the protections that were integral to MPP’s operation.

See Appl. 36.

That alone would be a serious intrusion “on the discretion of the
Legislative and Executive Branches in managing foreign affairs.”
Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108, 116 (2013)
(citation omitted).

But the harms to the government would not be

limited to foreign policy.

The injunction would disrupt border

12
operations and ongoing efforts to manage migration and combat
criminal networks, and would require costly investments of limited
DHS resources to rebuild a massive infrastructure that was disassembled more than a year ago, at the expense of other initiatives.
See Appl. 37-38.

It would make no sense to force DHS to bear those

costs during the pendency of an expedited appeal, only for the
whole effort to be wasted if the injunction is ultimately vacated.
Respondents unpersuasively attempt to discount the harms the
injunction will inflict on the government.

They parrot (Opp. 32,

36) the lower courts’ assertion that DHS can simply restart MPP
unilaterally, but they offer no meaningful answer to the government’s extended explanation (supported by declarations from highranking officials and the text of the MPP guidance documents themselves) why that assertion is false.
153.

See Appl. 7-8, 36; A.R. 152-

They also claim (Opp. 30) that Mexico was “a willing par-

ticipant in MPP.”
point.

Even if true, that assertion is beside the

Because MPP requires Mexican cooperation, the district

court’s injunction necessarily forces the Executive Branch to
secure Mexico’s agreement to its reinstatement under the different
conditions that prevail today.

Being compelled to engage in dip-

lomatic negotiations in the shadow of an injunction requiring the
adoption of a specific policy is a serious intrusion on the Executive Branch’s authority over the Nation’s foreign policy.
Respondents also point (Opp. 31, 33) to the court of appeals’
clarification

that

“[t]he

district

court

did

not

order

the

13
Government to restore MPP’s infrastructure overnight,” but rather
“ordered that, once the injunction takes effect
‘enforce and implement MPP in good faith.’”
ing id. at 86a).

* * *

, DHS must

Appl. App. 28a (quot-

But the court of appeals did not and could not

dispute that the injunction compels an abrupt shift in border
policy, in the allocation of scarce resources, and in the Nation’s
diplomacy with Mexico and other regional partners.

And although

the court of appeals’ interpretation of the good-faith standard
offers some flexibility, it also creates new problems of vagueness
and subjectivity.

Among other things, it effectively authorizes

judicial supervision of every aspect of MPP’s reinstatement, including the government’s negotiations with Mexico and any modifications to the program that may have to be made in light of the
COVID-19 pandemic and the flaws identified by both the Secretary
and the previous Administration.

See, e.g., A.R. 192-201.

The

district court should not be permitted to determine -- under threat
of contempt -- what terms the Executive must offer to Mexico in
order to satisfy a “good faith” obligation to reimplement MPP after
a significant hiatus.

And the district court’s reporting require-

ments, see Appl. App. 86a-87a, appear designed to facilitate micromanagement of DHS’s detention practices nationwide. 2

Respondents also reiterate their assertion (Opp. 34)
that any harm to the government is “self-inflicted.” But they do
not rebut the government’s showing that this proposition would
have the absurd consequence of requiring the government to treat
all lawsuits as de facto injunctions. See Appl. 38-39.
2

14
Respondents, by contrast, do not come close to establishing
irreparable harm.

As discussed above, see pp. 3-4, supra, they

assert nothing more than the incidental effects that would be
occasioned by any government policy affecting the number of people
present in a State, and they have not attempted to show a net harm
from the alleged population increase.
The specific circumstances of this case further diminish respondents’ claimed harms.

The Fifth Circuit expedited the gov-

ernment’s appeal “for consideration before the next available oral
argument panel.”
marginal

costs

Appl. App. 34a.
of

having

some

Forcing respondents to bear any
additional

noncitizens

present

within their borders while an expedited appeal is pending pales in
comparison

to

negotiations,

forcing

the

restructure

government
its

to

border

undertake

operations,

diplomatic
reorganize

immigration-court dockets, and reassemble the infrastructure for
MPP.
Moreover, because the reimplementation of MPP necessarily
depends on Mexico’s cooperation, respondents cannot show that
leaving the injunction in place would alleviate their asserted
harms.

In the related context of the CDC’s Title 42 order -- under

which far more noncitizens have been returned to Mexico since April
2020 than under MPP -- Mexico “has placed certain nationality- and
demographic-specific

restrictions

on

the

individuals

it

will

accept for return.”

86 Fed. Reg. 42,828, 42,836 (Aug. 5, 2021).

To the extent Mexico imposed such conditions (or others) on the

15
court-ordered version of MPP, it would necessarily reduce the purported benefits to respondents.
The court of appeals gamely acknowledged that “if the Government’s good-faith efforts to implement MPP are thwarted by Mexico, it nonetheless will be in compliance with the district court’s
order.”

Appl. App. 31a.

But that just underscores how far the

injunction strays from the proper judicial role.

Notwithstanding

the “danger of unwarranted judicial interference in the conduct of
foreign policy,” Kiobel, 569 U.S. at 116, the district court would
-- at the behest of States who may concededly gain nothing -supervise the good faith of the diplomacy needed to reestablish a
version of MPP that would function effectively in August 2021 and
thereafter.

This Court should not allow that unprecedented remedy

to stand before appellate review.
CONCLUSION
The application for a stay pending proceedings in the Fifth
Circuit and (if necessary) further proceedings in this Court should
be granted.

If the Court does not rule before the existing

administrative stay expires at 11:59 pm this evening, it should
extend that stay pending the resolution of this application.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
AUGUST 2021

